No. 20-1775

In the Supreme Court of the United States
THE STATE OF ARIZONA, ET AL.,
PETITIONERS,

v.
CITY AND COUNTY OF SAN FRANCISCO, ET AL.,

CERTIFICATE OF
SERVICE

RESPONDENTS.

I hereby certify that:
1.

On September 13, 2021, The Washington Plaintiffs’ Brief In Opposition

was served as follows:
2.

As requested, a PDF of the Brief In Opposition has been provided to

Laurie Wood at the Supreme Court; also as requested, one single-sided paper copy
has been sent to the Court via overnight FedEx; and a single-sided paper copy has
been sent to Counsel listed on the attached service list via the United States Postal
Service.
3.

All parties required to be served have been served.

4.

I am a member of the Bar of the Supreme Court of the United States.

DATED this 13th day of September 2021.
s/ Noah Guzzo Purcell
Noah Guzzo Purcell
Solicitor General
Counsel Of Record
1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200

SERVICE LIST
COUNSEL FOR PETITIONERS:

Brunn Wall Roysden III
Arizona Office of Attorney General
2005 N Central Avenue
Phoenix, AZ 85004

States of Arizona, et al.
602-542-5025
beau.roysden@azag.gov

Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue NW
Washington, D.C. 20530-0001

United States
202-514-2217
supremectbriefs@usdoj.gov

COUNSEL FOR RESPONDENTS:

Helen H. Hong
California Office of Attorney General
600 W Broadway Street Suite 1805
San Diego, CA 92101

State of California
619-738-9693
helen.hong@doj.ca.gov

Sara Jennifer Eisenberg
City Hall – Room 234
1 Dr. Carlton B. Goodlett Place
San Francisco, CA 94102

City & County of San Francisco et al.
415-554-4633
sara.eisenberg@sfcityatty.org

